March 31, 2011

ROBERT A. CAVINDER
DISTRICT MANAGER, APPALACHIAN DISTRICT


SUBJECT: Audit Report – Huntington, WV Processing and Distribution Facility
         Consolidation (Report Number EN-AR-11-003)

This report presents the results of our audit of the Huntington, WV Processing and
Distribution Facility’s (P&DF) proposed consolidation of mail processing operations into
the Charleston, WV Processing and Distribution Center (P&DC) (Project Number
11XG002EN000). The report responds to a congressional request. Our objectives were
to assess the business case and operational impacts of the proposed consolidation.
This audit addresses financial and operational risks. See Appendix A for additional
information about this audit.

                   Illustration 1: The Huntington, WV P&DF and Post Office




2010 was a difficult year for both the U.S. economy and the Postal Service. As the
economy weakened, mail volume and revenue continued to decline. The Postal Service
attempted to address these challenges with focused cost reductions and increased
efficiency. One initiative to reduce costs is area mail processing (AMP) consolidations,
which consolidate mail volume from two (or more) Postal Service processing facilities
into one to improve operational efficiency and/or service.
Huntington, WV Processing                                                                         EN-AR-11-003
 and Distribution Facility Consolidation


Conclusion

A valid business case exists to consolidate mail processing operations from the
Huntington P&DF into the Charleston P&DC to achieve cost savings of approximately
$3.5 million annually. Based on our analysis—

     Customer service scores should be maintained or improved, but there is potential for
      some temporary service degradations during implementation.

     Adequate capacity exists to process originating and destinating mail volume at the
      Charleston P&DC.

     Efficiency at the Charleston P&DC should improve with additional mail volume from
      the Huntington P&DF.

     There are minimal security risks to the mail. Biohazard protection equipment is
      available at the Charleston P&DC and contingency plans are in place for processing
      the mail.

     No career employee should lose their job, although there might be some
      reassignments.

     The consolidation will have minimal impacts on bulk mail discounts.

     A local postmark will remain available.

     Charleston P&DC electrical systems will be upgraded to accommodate mail
      processing equipment transferred from the Huntington plant.

We identified additional savings of $105,166 in annual maintenance costs and an
increase in transportation costs of $13,361 during fieldwork. Management corrected
both discrepancies during our review and this should not impact the consolidation. We
believe an on-site implementation team would assist with the consolidation, but are not
making a recommendation since we addressed this issue in a prior audit report.1 We will
report the additional savings in maintenance costs as predicted savings shortfall.
See Appendix B for our detailed analysis of this topic and Appendix C for our other
impact calculations.

Because there were no recommendations in this report, management did not provide
comments.




1
    Implementation of Lima, OH to Toledo, OH Area Mail Processing Consolidation, EN-AR-11-004, March 31, 2011.


                                                         2
Huntington, WV Processing                                                    EN-AR-11-003
 and Distribution Facility Consolidation



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at 703-248-2100.

     E-Signed by Robert Batta
   VERIFY authenticity with e-Sign




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    Megan J. Brennan
    David E. Williams
    John L. Prokity
    Damon M. Manz
    Corporate Audit and Response Management




                                            3
Huntington, WV Processing                                                                               EN-AR-11-003
 and Distribution Facility Consolidation


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history and
incurred a net loss of $8.5 billion2 in fiscal year (FY) 2010. A significant portion of this
loss is attributed to the continual decline in First-Class Mail® (FCM). The Postal Service
experienced a 20-percent loss of mail volume over the past 4 years, resulting in a
decline of more than 6 billion pieces during 2010. Although the Postal Service has
reduced expenses by $11 billion over the past 3 years, it has not sufficiently offset the
decline in mail volume and related revenue.

In testimony before Congress in June 2010,3 the U.S. Government Accountability Office
(GAO) found that deteriorating financial conditions and declining mail volume have
reinforced the Postal Service’s need to increase operational efficiency and reduce
expenses in its mail processing network. GAO states that one of the initiatives, AMP
proposals, are intended to reduce costs and increase efficiency by making better use of
excess capacity or underused resources, primarily at Postal Service P&DCs. The Postal
Service AMPs may involve consolidating originating operations (canceling and sorting
locally generated mail), destinating operations (sorting and preparing mail received from
more distant areas for local delivery), or both.

Title 39 U.S.C., § 101, Part 1, Chapter 1, states that the Postal Service “…shall provide
prompt, reliable, and efficient services to patrons in all areas….” Further, the September
2005 Postal Service Strategic Transformation Plan states, “The Postal Service will
continue to provide timely, reliable delivery to every address at reasonable rates.” The
Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated December 20,
2006 highlights “. . . the need for the Postal Service to increase its efficiency and reduce
its costs, including infrastructure costs, to help maintain high quality, affordable postal
services. . . .”

This report responds to a congressional request from Congressman Nick Rahall of West
Virginia’s 3rd Congressional District (see Map 1) to examine the consolidation of mail
processing operations from the Huntington P&DF into the Charleston P&DC.
Congressional concerns included—

   Efficiency of mail operations.
   Quality of service performance.
   Transportation routes and costs.
   Impact on security and contingency plans for the mail.
   Possible loss of jobs and staffing relocations.


2
  Of this amount, $5.5 billion occurred because of an annual legislative mandated obligation to prefund retiree health
benefits.
3
  Testimony to the Congressional Committees: Mail Processing Network Initiatives Progressing and Guidance for
Consolidating Area Mail Processing Operations Being Followed, (GAO-10-731, dated June 2010).


                                                           4
Huntington, WV Processing                                                                                 EN-AR-11-003
 and Distribution Facility Consolidation


   Impacts to bulk mail discounts, the local postmark, the local economy, and electrical
    power capacity at the Charleston P&DC.

                             Map 1: West Virginia’s 3rd Congressional District




The AMP feasibility study included originating4 and destinating5 mail processing
operations and was based on operational data from April 1, 2009, through March 31,
2010. The consolidation is scheduled to be implemented by March 31, 2011.

The Huntington and Charleston mail processing facilities are approximately 54 miles
apart in the Appalachian District of the Postal Service’s Eastern Area. Map 2 shows the
location of the two facilities.




4
  Originating operations are those associated with the acceptance and initial processing of mail that, for example, is
either tendered at a Postal Service retail windows or bulk entry units, or is deposited in collection boxes. Originating
processing marks the beginning stages of its journey in the mail stream.
5
  Destinating operations are those associated with the final processing of mail that, for example, is either
drop-shipped at various facilities or received from the network. Destinating processing marks the end stages of its
journey in the mail stream.


                                                            5
Huntington, WV Processing                                                    EN-AR-11-003
 and Distribution Facility Consolidation



                   Map 2: Huntington P&DF (1) and Charleston P&DC (2)




OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to assess the business case and operational impacts
of the proposed consolidation. In response to the congressional request, we evaluated
the workforce and operational impacts, service implications, efficiency gains, and
savings projections of the Huntington P&DF into the Charleston P&DC consolidation
proposal.

We reviewed current and historical data for the Huntington and Charleston facilities,
including data from the period covered by the AMP feasibility study worksheets. We
conducted on-site observations during the week of November 15, 2010; interviewed
Postal Service officials and employees; and reviewed applicable Postal Service
guidelines. We used the AMP proposal, dated November 15, 2010, as the basis for our
review. We generated reports and prepared analyses using Postal Service databases to
confirm information related to capacity, workhours, staffing, transportation, and service
standards regarding the proposed consolidation. These databases included:

   Activity-Based Costing.
   Enterprise Data Warehouse, (EDW).
   Service Standard Directory.
   Transit Time Measurement System.
   Transportation Contract Support System.
   Web Complement Information System.

We conducted this performance audit from October 2010 through March 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those


                                            6
Huntington, WV Processing                                                        EN-AR-11-003
 and Distribution Facility Consolidation


standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on March 24, 2011, and included their
comments where appropriate.

We assessed the reliability of workhour, staffing, transportation, and service data by
comparing our results with that reported in the AMP feasibility study and through
discussions with Postal Service managers. We determined that the data were
sufficiently reliable for the purposes of this report.

PRIOR AUDIT COVERAGE

                                                                             Final Report
                         Report Title                        Report Number
                                                                                 Date
  Kansas City, Kansas Processing and Distribution Center
                                                             EN-AR-08-001     1/14/2008
  Consolidation
  Marysville Processing and Distribution Facility
                                                             EN-AR-08-003     4/16/2008
  Consolidation
  Detroit, Michigan Processing and Distribution Center
                                                             EN-AR-08-005     7/17/2008
  Consolidation
  Mojave Post Office Consolidation                           EN-AR-08-006     9/17/2008
  Canton Processing and Distribution Facility Outgoing
                                                             NO-AR-09-011     9/22/2009
  Mail Processing Operation Consolidation
  New Castle Processing and Distribution Facility Outgoing
                                                             NO-AR-10-002     2/1/2010
  Mail Processing Operation Consolidation
  Manasota Processing and Distribution Center
                                                             EN-AR-10-003     2/12/2010
  Consolidation
  Lakeland Processing and Distribution Center
  Consolidation                                              EN-AR-10-004     2/12/2010

  Southeast Area Processing and Distribution Center
                                                             EN-AR-10-006     9/17/2010
  Consolidations
  Dallas Processing and Distribution Center Outgoing Mail
                                                             NO-AR-10-003     2/24/2010
  Consolidation
  Consolidation of the Lima P&DF Mail Operations Into the
                                                             NO-AR-10-007     7/2/2010
  Toledo P&DC
  Charlottesville Processing and Distribution Facility
                                                             NO-AR-10-008     8/3/2010
  Consolidation
  Review of Wilkes-Barre, PA Processing and Distribution
                                                             NO-AR-11-001     10/4/2010
  Facility Consolidation




                                                  7
Huntington, WV Processing                                                                               EN-AR-11-003
 and Distribution Facility Consolidation


                                 APPENDIX B: DETAILED ANALYSIS

Business Case

A valid business case exists to consolidate mail processing operations from the
Huntington P&DF into the Charleston P&DC to achieve projected cost savings. In
addition, our independent modeling of consolidation opportunities determined the
Huntington consolidation had merit. Our model ranked consolidation of the Huntington
P&DF into the Charleston P&DC in the top third (210 of 685) of potential consolidation
scenarios.6

We determined management planned to implement the Huntington P&DF AMP
proposal concurrently with the Beckley P&DF AMP proposal. There is an increased risk
for mail delays and service interruptions when multiple facilities are consolidated into
the same gaining facility at the same time. A team of functional experts onsite during
implementation could help reduce risks for potential mail delays and service
interruptions. Since we made a recommendation addressing implementation teams in a
prior audit report, we are not making a similar recommendation.7

Projected savings appear realistic and attainable based on our analyses of available
data. The Appalachian District projects to save approximately $3.5 million annually
through increased productivity gains from moving mail processing operations,
transportation changes, and the reduction of 37 positions. The majority of the savings
will come from reduced labor costs. One year after implementation the Postal Service
will assess the savings as part of the post-implementation review process.

Service

The consolidation should have little overall impact on customer service. There is,
however, a potential for some temporary degradation of service during the
implementation process. Having an implementation team of functional area specialists
onsite during the consolidation should help with potential service issues.

We reviewed three measures of customer service; the External First-Class
measurement system (EXFC),8 the 24-hour clock performance indicators,9 and the
projected service standard changes.




6
  The model identifies full AMP consolidation opportunities using eight consistent, objective key indicators grouped
into the following five categories: location, service, capacity utilized, facility type, and efficiency.
7
  Implementation of Lima, OH to Toledo, OH Area Mail Processing Consolidation, EN-AR-11-004, March 31, 2011.
8
  EXFC is a test an independent contractor performs to measure service performance for FCM (letters, flats, and
postcards) from mailbox to delivery customer.
9
  24-Hour clock indicators measure key indicators of operating performance at mail processing plants, which may
influence service.


                                                          8
Huntington, WV Processing                                                 EN-AR-11-003
 and Distribution Facility Consolidation



EXFC Scores

During the period April 1, 2009, through March 31, 2010, the Huntington P&DF had
slightly higher EXFC overnight scores than the Charleston P&DC (see Chart 1).

 Chart 1: Charleston P&DC vs. Huntington P&DF Overnight EXFC Service Scores
                      April 1, 2009, through March 31, 2010




For 2-day and 3-day service performance, the Charleston P&DC’s scores were
generally higher than Huntington P&DF’s scores. See Charts 2 and 3.

    Chart 2: Charleston P&DC vs. Huntington P&DF 2-Day EXFC Service Scores
                       April 1, 2009, through March 31, 2010




                                           9
Huntington, WV Processing                                                    EN-AR-11-003
 and Distribution Facility Consolidation


    Chart 3: Charleston P&DC vs. Huntington P&DF 3-Day EXFC Service Scores
                       April 1, 2009, through March 31, 2010




24-Hour Clock Indicators

The Charleston P&DC met or exceeded most of the 24-hour clock performance
indicators; however, cancellation of mail by 8 p.m. was below the established goal.
Management indicated several factors contributed to the lower score, including staffing
shortages and late arriving raw collection mail. Management stated that mail handler
staffing at the Charleston P&DC will be increased to authorized levels to improve the
8 p.m. cancellation percentage.

We found the AMP feasibility study used data from the Charleston, SC P&DF instead of
the Charleston, WV P&DC for comparison purposes in assessing potential impacts to
service performance. We determined that this error did not have a material impact on
the AMP feasibility study results. See Table 1 for 24-hour clock indicator performance
scores.

  Table 1: Charleston P&DC vs. Huntington 24-hour Clock Indicator Performance
                   Scores April 1, 2009, through March 31, 2010

                        Indicator                       Charleston P&DC Huntington P&DF
Cancel 80% of collection mail by 2000                        63.7%           79.8%
Clear Outgoing Primary mail by 2300                          97.8%           99.9%
Clear Outgoing Secondary mail by 2400                        95.1%           100.0%
Clear Managed Mail Program mail by 2400 - zero MMP           96.1%           87.5%
Assign mail to commercial/FedEx outgoing mail by 0230        94.3%           100.0%
Clear Delivery Point Sequence 2nd Pass by 0700               98.8%           92.1%
Trips On Time between 0400 - 0900 to delivery units          79.0%           87.5%




                                              10
Huntington, WV Processing                                                                            EN-AR-11-003
 and Distribution Facility Consolidation


Service Standards

We determined that the overall impact on service standards10 for all mail classes will be
a net upgrade. There will be 3,774 upgrades and 126 downgrades to service standards.
See Table 2 for a summary of service standard changes.

                                 Table 2: Service Standard Changes

                      Mail Class            Upgrades          Downgrades         Net Change
                 First-Class                         42                  24                   18
                 Priority Mail                       42                  24                   18
                 Periodicals                        891                  42                  849
                 Standard Mail                    2,769                  18                2,751
                 Package Services                    30                  18                   12
                 All Classes                      3,774                 126                3,648

Capacity

Adequate capacity exists to process additional originating and destinating mail volume
at the Charleston P&DC. Based on March FY 2010 mail volumes, the Huntington P&DF
would transfer approximately 142 million first handling pieces11 to the Charleston P&DC.
This represents a 6.7-percent increase in volume for the Charleston P&DC. To address
this increased volume, four delivery barcode sorter machines will be transferred to the
Charleston P&DC. We determined that existing excess capacity at the Charleston
P&DC with the additional mail processing equipment should provide sufficient capacity
for the Charleston P&DC to process mail from the Huntington P&DF. In addition, the
added mail processing equipment will help the Charleston P&DC increase use of
excess floor space within the plant.

We noted that an upgrade to the electrical power system will be required at the
Charleston P&DC to accommodate the additional mail processing equipment from the
Huntington P&DF. The improvements will include wiring to the additional mail
processing equipment and upgrades to a transformer and electrical panel. The AMP
proposal includes an estimate to upgrade the electrical system for a one-time cost of
$31,920, which was deducted from the projected AMP savings.




10
   Service standards are defined as a stated goal for service achievement for each mail class. Service standards
represent the level of service the Postal Service strives to provide to customers and are considered one of the
primary operational goals against which service performance is measured. An upgrade or downgrade means that
service between two ZIP Codes is either faster or slower than it was before a change.
11
   FHP is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.


                                                         11
Huntington, WV Processing                                                                          EN-AR-11-003
 and Distribution Facility Consolidation


Efficiency

Although the Huntington P&DF is slightly more efficient than the Charleston P&DC,
efficiency at the Charleston plant has been and should continue to improve as a result
of the consolidation. Many factors including the mail mix, type of sortations, and size of
the plant impact Breakthrough Productivity Initiative (BPI)12 scores. BPI scores show the
performance of plants compared to established performance expectations, with higher
scores representing better performance. Table 3 shows productivity scores for the
Huntington and Charleston plants since FY 2008.

                                            Table 3: BPI Scorecards
                               Facility         FY 2008       FY2009      FY 2010     FY 2011
                      Huntington P&DF            64.3%        67.3%        67.4%       65.7%
                      Charleston P&DC            54.6%        56.2%        57.8%       59.9%
                Source: EDW.


Transportation

Transportation costs of $376,800 associated with travel between the Huntington and
Charleston plants should ensure the mail meets operational clearance times at the
Charleston P&DC; however, a minor discrepancy existed between the AMP worksheets
and supporting data. The AMP worksheets, dated November 15, 2010, did not report an
increase of $13,361 in transportation costs resulting from transportation routes changes.
According to management, the number of routes listed in the transportation worksheets
were revised by the area and headquarters officials without sharing the changes with
Charleston P&DC management. During our review, management provided updated
information to support the route changes.

Maintenance

Projected maintenance savings were understated by $105,166, because the AMP
worksheets did not accurately estimate workhours needed to operate and maintain the
new equipment coming from the Huntington P&DF. During fieldwork, management
corrected the maintenance costs to reflect these workhours associated with mail
processing equipment, building equipment, and custodial services at the Charleston
P&DC.

Workhours

Approximately $1.4 million or 39 percent of projected cost savings will result from
workhour reductions. During our review, we identified 8,383 workhours ($381,014)
associated with processing mail at the Huntington P&DF and the Charleston P&DC that
were incorrectly reported in the AMP worksheets as craft employee workhours instead
of Executive and Administrative Schedule (EAS) workhours. Postal Service managers

12
  BPI is a comprehensive and integrated method for comparing and improving productivity in mail processing
operations.


                                                         12
Huntington, WV Processing                                                     EN-AR-11-003
 and Distribution Facility Consolidation


attributed this issue to the way that data was pulled from EDW. During our review,
management adjusted the standard operating procedures for pulling data from EDW to
populate the worksheets to ensure proper calculations. The inaccurate workhour data
did not impact the proposed savings.

Employees

Consolidation of the Huntington P&DF’s mail into the Charleston P&DC will impact
staffing, although no career employee should lose their job and some might be
reassigned.13 Staff reductions seem reasonable based on proposed AMP projections.
The transfer of mail processing operations from the Huntington P&DF to the Charleston
P&DC may impact 42 craft and two EAS positions at the Huntington P&DF. These
employees will be offered positions at the Charleston P&DC. The remaining 37
employees (33 craft and four EAS) will have opportunities to fill other vacancies in the
Appalachian District.14 Attrition and retirement could reduce the number of employees
that would have to be accommodated.

Other Concerns

We did not identify any additional customer service-related issues that would be
impacted by the consolidation. Operations at the business mail entry unit and retail
operations will remain at the Huntington Post Office.

According to Handbook PO-408, each Post Office is required to make a local postmark
available. The Huntington Post Office can provide a local postmark on stamped mail at
a retail counter.

Potential Risks

We determined that identifying key risks can assist management when making
decisions and taking actions.




13
     In accordance with labor/management agreements.
14
     Some employees might be entitled to relocation benefits.


                                                           13
Huntington, WV Processing                                                                EN-AR-11-003
 and Distribution Facility Consolidation


                                             Key Risks

        Risk
                         Risk Factor         Probability   Impact               Risk
      Category
                                                                    Changes to network
                                                                    encounter resistance and
    Strategic        Stakeholder relations      High        High
                                                                    can delay/terminate
                                                                    consolidations.
                                                                    Duplication of craft positions
                                                                    and workhours at losing and
                                                                    gaining facilities may
    Financial             Labor costs           High        High    increase costs temporarily.
                                                                    There is also a lack of
                                                                    flexibility in adjusting
                                                                    workhours to workload.
                                                                    Ability to build and maintain
                         Emergency                                  a comprehensive security
    Operational         Preparedness/           Low         High    plan to effectively protect
                        Security Plan                               facilities and assets, people,
                                                                    and the process.
                                                                    Use of an onsite
                                                                    implementation and
    Operational             Service           Medium       Medium   integration team to assist in
                                                                    planning and monitoring
                                                                    workload during execution.
                                                                    Efficient and cost-effective
                      Real estate/space
    Operational                               Medium       Medium   use and disposition of
                        management
                                                                    excess space.




                                                  14
Huntington, WV Processing                                                                             EN-AR-11-003
 and Distribution Facility Consolidation



                                    APPENDIX C: OTHER IMPACTS

                Finding                           Impact Category                                     Amount
         Maintenance Costs                   Predicted Savings Shortfall                             $105,166

We identified a predicted savings shortfall15 of $105,166 in maintenance savings. While
we were onsite at the Charleston P&DC, management corrected the AMP worksheets
to reflect the correct maintenance savings of $1,521,350. The adjustments were made
based on workhours for mail processing equipment, building equipment, and custodial
services at the Charleston P&DC.




15
  The difference between the savings predicted by the Postal Service for a project and the actual savings realized or
the OIG estimate of savings that will be realized.


                                                         15
